                               ARTMENT OF HOMELAND SECURITY
                                               Office of Inspector General
                                                                       -
                                           Atlanta Field Office Audit Division
                                                3003 Chamblee Tucker Rd
                                                     Atlanta, GA 30341


                                               January 13,2004

MEMORANDUM

TO:                  Kenneth 0 . Burris, Jr.
                     Regional Director, FEMA Region W

FROM:
                                                                                 ---...

SUBJECT:             City of Andalusia, Alabama
                     FEMA Disaster No. 1208-DR-AL
                     Audit Report DA- 10-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the City of
Andalusia, Alabama. The objective of the audit was to determine whether the City accounted for
and expended FEMA funds according to federal regulations and FEMA guidelines.

The City received an award of $1.4 million from the Alabama Emergency Management Agency,
a FEMA grantee, for emergency protective measures and repair of roads, bridges, and utilities
damaged as a result of severe storms and flooding in March 1998. The award provided 75
percent FEMA funding for 4 large projects and 18 small projects'.

The audit covered the period March 1998 to November 2000. During this period, the City
claimed $1,375,988 and received $1,031,994 of FEMA funds.

The OIG performed the audit under the authority of the Inspector General Act of 1978, air
amended, and according to generally accepted government auditing standards. The auditt;
included tests of the City's accounting records, a judgmental sample of expenditures, shdkhhbk
procedures considered necessary under the circumstances.

The OIG determined that the City accounted for and used F E W funds according to federal
regulations and FEMA guidelines. On November 6,2003, City officials were informed of the
audit results. Since this report contains no recommendations, a response is not required.

Should you have any questions concerning this report, please contact David Kimble or me at
(770) 220-5242.

Notice: This report remains the property of the DBS Omce of Inspeetor Generd (DEIS-OIG) at dl times and, as such, is not
to be publicly discloeed without the express permbion of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Offlce of Counael to the Inspector General to ensure sMct compliance with all applicable
disclosure laws.

1
    According to FEMA regulations, a large project costs more than $47,100 and a small projects costs
$47,100 or l e s c   -
